                        U.S. Department of Agriculture
                           Office of Inspector General




FSIS Sampling Protocol for Testing Beef Trim
            for E. coli O157:H7




                                  Audit Report 24601-9-KC
                                            February 2011
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250




DATE:          February 24, 2011

REPLY TO
ATTN OF:       24601-9-KC

TO:            Alfred V. Almanza
               Administrator
               Food Safety and Inspection Service

ATTN:          William C. Smith
               Assistant Administrator
               Office of Program Evaluation, Enforcement and Review

FROM:          Gil H. Harden          /s/
               Assistant Inspector General
                for Audit

SUBJECT:       FSIS Sampling Protocol for Testing Beef Trim for E. coli O157:H7 – Phase I

This report presents the results of the subject audit. Your written response to the draft report,
dated January 28, 2011, is attached with excerpts and the Office of Inspector General’s (OIG)
position incorporated into the Finding and relevant Recommendation sections of the report.

We agree with management decision on Recommendation 1 of the report. However, we are
unable to accept management decision on Recommendations 2, 3 and 4. Documentation and/or
actions needed to reach management decisions for these recommendations are described in the
OIG position section of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementing the
recommendations for which management decision has not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report. Please
follow your agency’s internal procedures in forwarding documentation for final action to the
Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Table of Contents

Executive Summary .................................................................................................1
Background & Objectives .......................................................................................5
Background...............................................................................................................5
Objectives ..................................................................................................................8
Section 1: FSIS Needs to Improve Its Methodology to Test for E. coli
O157:H7 Contamination .........................................................................................9
   Finding 1: FSIS Should Take Steps to Reevaluate and Solicit Public
   Comment on Redesigning Its Beef Trim Sampling Methodology in Order to
   Improve the Detection of E. coli O157:H7 Contamination ..............................9
         Recommendation 1 ......................................................................................13
         Recommendation 2 ......................................................................................13
         Recommendation 3 ......................................................................................15
         Recommendation 4 ......................................................................................16
Scope and Methodology .........................................................................................18
Appendix A: Response to Congressional Request for Information Regarding
FSIS’ E. coli O157:H7 Testing ..............................................................................21
Appendix B: Update to January 2008 Memorandum to Former Deputy
Secretary Conner on E. coli Sampling and Testing ............................................28
Abbreviations .........................................................................................................30
Agency’s Response .................................................................................................31
Report Title and Number: FSIS Sampling Protocol for Testing Beef
Trim for E. coli O157:H7 - 24601-9-KC

Executive Summary

Results in Brief

On November 12, 2009, the Chairwoman of the House Appropriations Subcommittee on
Agriculture, Rural Development, Food and Drug Administration, and Related Agencies wrote to
the U.S. Department of Agriculture’s (USDA) Office of Inspector General (OIG) to express
concerns about the efficacy of the testing the Food Safety Inspection Service (FSIS) performs to
detect Escherichia coli (E. coli) O157:H7 in U.S. beef “trim.” 1 A recent outbreak of
E. coli O157:H7 contamination had resulted in at least two deaths and more than two dozen
illnesses in 11 States, and the Congresswoman posed a number of questions about whether FSIS’
sampling protocol is statistically valid; how FSIS collects and analyzes samples; and how the
agency and industry respond to test results.

In order to expedite this Congressional request, OIG divided its work into two phases. In this
report, we are presenting the results of Phase I of our review of FSIS’ sampling method, our
direct answers to the Congresswoman’s questions (see Appendix A), and our followup
observations pertaining to the memorandum we issued in January 2008 related to E. coli
O157:H7 testing (see Appendix B). In Phase II, we will perform fieldwork at beef processing
plants to expand upon information presented in this report and also to pursue issues such as
whether plants are testing for E. coli O157:H7 consistently and if FSIS personnel are following
FSIS procedures for sampling and testing. 2

At beef slaughter and fabrication plants (processing plants) nationwide, FSIS inspectors sample
beef trim and then it is tested to detect E. coli O157:H7 contamination. When FSIS began
performing these tests on beef trim in 2007, it chose a sampling method that it believed to be the
most scientifically rigorous available: N-60. As part of N-60, FSIS inspectors take 60 small, thin
sample pieces of exterior carcass material from a very large unit of trim, known as a “lot,” and
ship those samples to designated FSIS laboratories to be tested for the presence of
E. coli O157:H7.

According to FSIS officials, N-60 is not designed to find E. coli O157:H7 in any given lot at a
specific statistical confidence, but to verify that E. coli O157:H7-preventing interventions at
processing plants (such as carcass washes or steam cabinets) are working as intended, and to


1
 Trim consists of the pieces of meat that are cut away to make sought after cuts more desirable. Trim is normally
processed into ground beef.
2
  OIG acknowledges that both FSIS and the industry perform N-60 E. coli O157:H7 pathogen testing. However, we
have not reviewed or examined industry’s efforts in their N-60 sampling programs, and we do not intend this report
to reflect on those efforts. This report is exclusively directed towards the FSIS N-60 sampling program in beef trim.



     Audit Report 24601-09-KC                                                                                       1
emphasize to the plants that they are being monitored. Food safety, from FSIS’ perspective, is
best assured by interventions such as these because no method of statistical sampling and
testing can guarantee with absolute certainty that a particular lot of beef trim is entirely free
from E. coli O157:H7 contamination. While OIG agrees that testing alone cannot suffice to
ensure that consumers are safe from a pathogen like E. coli O157:H7, we found that FSIS’
N-60 sampling method is not designed to yield the statistical precision that is reasonable for food
safety or to verify that plant controls or interventions are working as intended.

The dilemma facing FSIS is that as plants’ controls and interventions become more effective
at eliminating fecal material on carcasses, the presence (or prevalence rate) of E. coli O157:H7
contamination in beef trim becomes lower. Statistically, the lower the prevalence rate, the more
difficult the pathogen is to find and the more samples need to be taken to detect it. We found
that FSIS’ current sampling model of collecting just 60 sample pieces may not provide a
reasonable likelihood of finding E. coli O157:H7 contamination at a very low prevalence rate
given the following problems:

•   FSIS has not determined the rate at which E. coli O157:H7 can be found in beef trim, or its
    “prevalence rate,” even though the design of an adequate sampling method should begin with
    this information. FSIS should also determine how often the prevalence rate should be
    reassessed.

•   FSIS has not evaluated or justified the contamination level for E. coli O157:H7 that is
    associated with its N-60 sample size and confidence level (essentially the amount of
    contaminated trim that might slip through N-60 without being detected)—in an FSIS sample
    of N-60, there is a 5 percent probability of missing actual contamination that is present in
    5 percent of a given lot. There is also a 55 percent probability of missing actual
    contamination that is present in 1 percent of a given lot—in other words, if the contamination
    level is very low, FSIS is more likely to miss contamination than to detect it.

Given its shortcomings and the presumed low occurrence of this pathogen, the N-60 sample size
and design may not be adequate for detecting E. coli O157:H7 in beef trim.

FSIS officials have stated that they are reluctant to increase the number of pieces in samples
beyond N-60 because taking a large number of sample pieces is impractical due to the associated
time and cost to take a sample and limitations on sampling and testing resources. Yet the
probable scarcity of E. coli O157:H7 requires that more than 60 sample pieces be taken if
FSIS is to obtain results which provide a higher degree of confidence in detecting the
E. coli O157:H7 pathogen and signal an establishment’s failure to execute effective interventions
or process controls. To ease the burden on FSIS resources, the agency could designate a
specialized team (or individual) that would supplement onsite inspectors for the more intensive
sample collections.

OIG acknowledges that increasing FSIS’ sample size would strain the agency’s sampling
and laboratory testing resources. For this reason, we are also recommending that FSIS move to
an inspection system that will determine which processing plants are at a higher risk of
E. coli O157:H7 contamination. This would enable the agency to focus its testing resources on


    Audit Report 24601-09-KC                                                                       2
those plants. We also believe that FSIS should take advantage of the fact that many plants,
especially the larger and more sophisticated ones, are independently performing hundreds of
their own E. coli O157:H7 tests daily, some more rigorously than others. If FSIS could assure
itself these plants’ samples and tests for E. coli O157:H7 at least met FSIS standards, or even
more rigorous ones, then FSIS could utilize these plants’ testing results to augment its own. The
plants, after all, have compelling economic reasons to have an effective testing program since
they bear the costs of any recalls.

OIG concludes that FSIS needs to take steps to thoroughly reevaluate its N-60 sampling program
for testing beef trim. The design should provide the American public a high degree of
confidence that FSIS tests are accurately identifying E. coli O157:H7 in order to detect an
establishment’s failure to execute effective interventions or process controls and, ultimately,
prevent the distribution and consumption of E. coli O157:H7-contaminated meat.

Recommendation Summary
Develop and implement a plan with specific timeframes and milestones to prioritize and perform
necessary baseline studies of beef trim and ground beef in order to determine the estimated
prevalence rate of E. coli O157:H7 for redesigning FSIS’ sampling program. The plan should
include how often the prevalence should be reassessed.

Re-evaluate its sample parameters (size and confidence level) and redesign a sampling program
for E. coli O157:H7 in beef trim that provides higher confidence in FSIS accurately detecting
contaminated product in order to effectively verify process controls at beef processing plants
across the nation.

Thoroughly document the scientific support and rationale for FSIS’ revised E. coli O157:H7
sampling program design, including the contamination level that will be associated with the new
sample parameters and how the estimated prevalence rate impacts the new design. Publish FSIS’
revised E. coli O157:H7 sampling design, along with its support and design rationale, for public
comment, and consider any recommended changes before implementing the new sampling
program.

Develop a detailed operational plan with specific timeframes and milestones to implement an
inspection system that focuses E. coli O157:H7 sampling and testing resources primarily at
plants that are likely to be of higher risk, and consider the use of specialized sample collection
teams.

Agency Response
In its January 28, 2011, written response to the official draft report, FSIS generally expressed
agreement with our finding and recommendations. Also, included in the FSIS’ response were
general comments regarding the agency’s trim sampling program. We have incorporated the
FSIS response in the Findings and Recommendations section of this report, along with our
comments in the applicable OIG Position sections. FSIS’ response to the official draft is
included in its entirety at the end of this report.

    Audit Report 24601-09-KC                                                                         3
OIG Position

We concur with FSIS’ proposed corrective actions and have accepted management decision for
Recommendation 1. However, FSIS did not provide sufficient detail regarding their planned
corrective actions on Recommendations 2, 3 and 4 for us to accept management decisions for
these recommendations at the issuance of this report. We have provided our comments and what
is required to reach management decision on each recommendation in the applicable OIG
Position sections.




    Audit Report 24601-09-KC                                                               4
Background & Objectives

Background
FSIS is the public health regulatory agency of USDA. As such, the agency protects consumers
by ensuring that beef is safe, wholesome, and accurately labeled. Under the Federal Meat
Inspection Act, FSIS inspects all beef sold in interstate commerce to ensure that it meets U.S.
food safety standards.

According to the Centers for Disease Control and Prevention, E. coli are a large and diverse
group of bacteria. Most strains of E. coli are harmless, but other strains of E. coli, such as
E. coli O157:H7, cause disease by making Shiga toxin. The symptoms of Shiga toxin poisoning
can include severe stomach cramps, diarrhea, and vomiting. Most people who consume beef
contaminated with E. coli O157:H7 will recover within 5 to 7 days; some infections are very
mild, but others can be lethal. The Centers for Disease Control and Prevention estimate that
E. coli O157:H7 caused about 70,000 cases of Shiga poisoning annually in the United States: in
2009, 52 of these cases proved fatal. USDA’s Economic Research Service estimates that the
total costs, such as doctor bills and hospitalization costs, associated with consuming
E. coli O157:H7-contaminated meat are about $405 million annually.

In 1994, the U.S. District Court held that the Department could reasonably consider
E. coli O157:H7 an adulterant, and consequently that it could, as part of its statutory authority,
regulate ground beef that might be contaminated. 3 FSIS relies on the authority provided by this
statute to test ground beef and trim. Although it has not codified that authority in Federal
regulations, it has issued multiple agency directives. In March 2010, FSIS issued its most
recent version of Directive 10,010.1, entitled “Microbiological Testing Program and Other
Verification Activities for Escherichia coli O157:H7 in Raw Ground Beef Products and Raw
Ground Beef and Beef Patty Components.” This directive includes instructions to FSIS
inspection personnel and other program investigators on sampling and other verification
activities for E. coli O157:H7 in raw beef products. In August 2008, FSIS drafted a
“Compliance Guideline for Sampling Beef Trimmings for Escherichia coli O157:H7.” The
draft was published for comment, but has yet to be finalized.

Ground beef is made up of less tender and less popular cuts of beef. After slaughter, the cattle
carcass is cut into various intact cuts of meat (e.g., loin, ribs, roasts, and steaks). After the intact
cuts are removed, the pieces of meat and fat that remain, known as “beef trim,” are either ground
or sold to processing plants for grinding into hamburger products. The large quantity of ground
beef produced in the United States—using nearly 4 billion pounds of trim annually4—is sold to a



3
 Texas Food Industry, et al., v. Mike Espy, et al., Civ. No. A-94-CA-748 JN, United States District Court, West
District, Texas, Austin Division, December 13, 1994.
4
 February 2008 FSIS report titled “Risk-based Sampling for Escherichia coli O157:H7 in Ground Beef and Beef
Trim”, p. 7. The figure was an estimate of pounds of beef trim based on the estimated pounds of trim for each class
of beef. The slaughter data was taken from 2005 eARDS data.


     Audit Report 24601-09-KC                                                                                     5
wide variety of customers, including grocery stores, restaurants, fast food establishments, and the
National School Lunch Program, for the most part.

Since 1994, FSIS has tested ground beef for E. coli O157:H7; beginning in 2007, the agency
expanded its testing program to include testing beef trim. E. coli O157:H7 can contaminate beef
trim when fecal material from slaughtered cattle comes into contact with, and remains on, the
carcass. To prevent beef trim from becoming contaminated, plants apply interventions—safety
controls such as lactic acid sprays, carcass washes, or steam cabinets, which are intended to
decontaminate carcasses before they are cut into pieces or the meat is shipped from the plant.
Although E. coli O157:H7 grows very slowly when it is refrigerated, cold, and even freezing
temperatures, do not destroy it. The actual dose necessary to infect a person is unknown, but
most scientists believe that a small amount of E. coli O157:H7 can cause serious illness and even
death, especially in younger children. The only certain and practical way of destroying all
E. coli O157:H7 in a serving of ground beef is to cook the product thoroughly to 160 degrees
Fahrenheit or hotter, internally.

FSIS explained that its sampling and testing program for E. coli O157:H7, is not so much a way
of guaranteeing that a given shipment of beef trim is free from contamination, but rather a way of
detecting breakdowns in plants’ processing controls or applied interventions that would lead to
unusually high levels of E. coli O157:H7 contamination, and also as a way of communicating to
plants that they are being monitored. While FSIS inspectors may sample from large plants each
month, they may test for E. coli O157:H7 in some small to medium-sized plants as little as one
sample per quarter. It is important to recognize that no system of statistical analysis can arrive at
100 percent certainty that any given lot of beef trim is free of E. coli O157:H7. Although
repeatedly testing a given lot improves the probability of finding E. coli O157:H7, it cannot
guarantee that the sampled lot of beef is completely free from contamination.

When FSIS began developing a system to test for E. coli O157:H7 on beef trim, it concluded that
a sampling system called N-60 was the best available. N-60 sampling is based on a sampling
methodology presented by the International Commission on Microbiological Specifications for
Food which explains that the number 60 is a sufficiently rigorous sampling methodology for
those food-borne hazards that are severe (cause severe illness or death) and where the pathogen’s
environment may increase the hazard. 5

The N-60 sampling method requires an inspector to collect 60 pieces of beef trim from a
production lot of beef cuts or trimmings that will be used for the making of ground beef. 6 The
pieces the inspector collects are small thin slices preferably from the trim cuts that were closest
to the surface of the carcass since E. coli O157:H7 would not normally be located inside the
animal’s muscles. N-60 sampling is resource intensive, often taking inspection program
personnel over an hour to collect a sample. The sample is shipped to a designated FSIS
laboratory where it is composited for testing to determine the presence of E. coli O157:H7.

5
    In the proper conditions, E. coli O157:H7 can grow and become more numerous.
6
  FSIS designates the size of each of the 60 pieces sliced from a trim cut should be 3 inches x 1 inch x 1/8 inch,
approximately the size of a rubber eraser. The 60 pieces are composited and sent as one sample for testing at a FSIS
laboratory.


       Audit Report 24601-09-KC                                                                                   6
Establishments sometimes do not hold product pending test results, as evidenced by recalls based
on E. coli O157:H7 positive test results. However, the sampled beef is generally held from
commerce until the results are returned. If E. coli O157:H7 is detected, then the sampled beef is
destroyed or used in cooked product where the contaminant will be destroyed. In 2010, FSIS
took steps to refine and improve its N-60 sampling method by (1) issuing more detailed guidance
concerning trim sampling, followup sampling, and tracing product back to the source of the
contamination; (2) producing an instructional video; and (3) improving its laboratory procedures.

Each year, FSIS schedules approximately 4,400 sample collections of beef trim using
N-60 samples. 7 Onsite FSIS inspectors collect the 60 sample pieces for the tests from
industry-defined “lots.” A lot is a quantity of product produced from similar manufacturing
conditions, product types, or time periods. A “lot” of beef trimmings is typically 10,000 pounds
or less depending on the number of units in the lot. 8 Beef trimmings are often collected and
transported in large bins that hold approximately 2,000 pounds of trim. The bins, or “combos,”
can be sampled as individual units, grouped in a five combo lot, or grouped in other lot sizes that
fit a company’s manufacturing process.

FSIS also adopted the N-60 method not only to improve the effectiveness of its sampling, but
also to encourage the regulated industry to implement the method. According to FSIS officials,
the agency has recommended, in multiple documents, that establishments conduct testing of their
own for E. coli O157:H7, since plants have considerable economic incentive to develop effective
sampling and testing systems. If E. coli O157:H7 is found in beef trim that has left the plant, the
plant is likely to bear the expense of recalling the product from commerce. In 2008, FSIS held a
public meeting to discuss methods for industry sampling of beef trimmings and its related draft
compliance guide. The compliance guide discusses the use of N-60 as part of industry statistical
process control programs. FSIS officials stated that encouraging industry to sample product for
pathogens is a goal of all FSIS sampling programs.

Large plants that sample product may collect frequent samples of N-60 for testing within a day’s
production in order to detect sharp spikes in E. coli O157:H7 contamination, indicating to a plant
manager that an intervention or process control is not working effectively and immediate
corrective action is needed. However, FSIS does not require that plants perform these tests, nor
does it currently provide standards that plants must meet if they choose to test their own product.
Hazard Analysis and Critical Control Point (HACCP) regulations do, however, require that
establishments verify, through testing or other means, that their food safety systems work. FSIS
may also look at establishment’s sampling and testing methods during its Food Safety
Assessments. Plants are also not required to inform FSIS inspectors of positive test results, but
they are required to make the test results available for the inspector’s review. FSIS inspectors
are required to examine the test results at least weekly to determine whether plants took
appropriate corrective actions.


7
 The FSIS website publishes the number of collected product samples that are analyzed every year: 2319 in 2008,
2728 in 2009, and 2492 as of November 21, 2010.
8
  FSIS allows plants that produce trim the flexibility to determine lot size. We obtained this information from
industry sources.


     Audit Report 24601-09-KC                                                                                     7
It is important to note that FSIS sees its N-60 sampling of beef trimmings as only one of a
number of verification activities FSIS conducts regarding establishment process controls for
E. coli O157:H7. Sample collection and analysis is one of the eight HACCP verification
activities listed under the regulations in 9 Code of Federal Regulations FR 417.8. HACCP
requires that all significant hazards with the products and production environment be identified
and controlled. Therefore, FSIS sampling of beef trimmings works along with these and other
inspector verification activities, including FSIS sampling of ground beef and other ground beef
components, as well as industry process controls and sampling, to reduce and detect E. coli
O157:H7 in non-intact beef products. According to FSIS officials, their N-60 sampling of beef
trimmings needs to be viewed as a component of the totality of verification activities within an
establishment over time.

Objectives
Our objective in this phase of the audit was to follow up on matters reported in our
memorandum, “Food Safety and Inspection Service Sampling and Testing of E. coli,” issued
January 29, 2008, related to examining the adequacy and effectiveness of FSIS’ N-60 sampling
method.




    Audit Report 24601-09-KC                                                                       8
Section 1: FSIS Needs to Improve Its Methodology to Test for
E. coli O157:H7 Contamination

Finding 1: FSIS Should Take Steps to Reevaluate and Solicit Public
Comment on Redesigning Its Beef Trim Sampling Methodology in Order to
Improve the Detection of E. coli O157:H7 Contamination
We found that FSIS’ N-60 sampling program is not adequately designed to yield the statistical
precision that is reasonable for food safety purposes or to verify that a plant’s interventions and
process controls are working as intended. FSIS’ sampling dilemma is that given the likely low
occurrence of E. coli O157:H7 in U.S. beef trim, FSIS must collect more than 60 pieces before it
can attain the precision that is reasonable for food safety purposes. With just 60 sample pieces,
FSIS is currently more likely not to find E. coli O157:H7 than it is to find it in a sample of
product with, for example, 1 percent contamination. 9 The problems with N-60 occurred because
FSIS, from the outset, did not design its sampling program to achieve a specific level of
statistical precision. This was because FSIS perceived its sample and collection analysis as only
one component of its eight HACCP verification activities 10 and, also, as a method to encourage
the regulated industry to conduct testing of their own for E. coli O157:H7. We believe FSIS
needs to correct N-60’s limitations by redesigning its sampling program to provide a higher
degree of confidence that its beef trim tests are accurately identifying contaminated product in
order to detect an establishment’s failure to execute effective interventions or process controls;
thus, preventing the establishment from distributing E. coli O157:H7-contaminated meat.

The Federal Meat Inspection Act states that FSIS is to protect the health and welfare of
consumers by preventing the distribution of meat products that are unwholesome or adulterated.
In 1994, USDA won a case in the U.S. District Court, which upheld that that the Department
could reasonably consider E. coli O157:H7 an adulterant, and that consequently it could, as part
of its statutory authority, regulate beef that might be contaminated. 11 Since the 1990s, FSIS has
maintained a testing program for raw ground beef, but starting in 2007, the agency began testing
the components of ground beef, most notably trim.

FSIS adopted the N-60 sampling method because the agency believed that N-60 was the most
rigorous method identified in the scientific literature, yet it did so without fully communicating,
in advance, to the public and to Congressional decision-makers the shortcomings of this method.
According to FSIS officials, the agency did not hold a public meeting on N-60 sampling until
2008, although it has briefed industry and consumer groups multiple times since. Moreover,


9
 At 1 percent contamination, N-60 yields only a 45 percent level of confidence that the adulterant would be found,
which is far short of the level of confidence normally considered statistically desirable. Since this is a question of
food safety, we use 1 percent in our example.
10
  9 Code of Federal Regulations 417.8 proscribes eight activities that FSIS performs to verify a plant’s HACCP,
including sample collection and analysis.
11
  Texas Food Industry, et al., v. Mike Espy, et al., Civ. No. A-94-CA-748 JN, United States District Court, West
District, Texas, Austin Division, December 13, 1994.


     Audit Report 24601-09-KC                                                                                            9
when FSIS adopted N-60, it did not take the steps necessary to adapt the sampling program so
that it would correctly identify contaminated product, such as determining the rate at which
E. coli O157:H7 can be found in U.S. beef trim. Instead, it designated the number 60 as an ideal
sample size in order to achieve a balance between collecting a representative sample while not
over-burdening its inspection staff.

FSIS officials, academics, and industry representatives all agree that the expected occurrence rate
of E. coli O157:H7 in the U.S. beef trim supply is very low; however, FSIS has not formally
determined the prevalence of E. coli O157:H7, which should have been the first step in
developing an effective sampling design. In 2008, FSIS did publish a baseline data collection
program, which reported partial results indicating the positive rate for E. coli O157:H7 was
0.68 percent. 12 However, the study also stated that this rate was “only a raw number and should
not be considered as the national prevalence.” FSIS did not put forward 0.68 percent as a rate of
national prevalence in part because the agency gave industry advance notice that testing was
going to be performed, and then relied on samples from product that industry had already
tested. 13 FSIS had intended to issue a prevalence rate based on this study, but had not done so at
the time of our fieldwork because of competing priorities that delayed completing the project.

In followup discussions during November and December, 2010, FSIS officials informed us they
had a draft document that established a national prevalence rate from the 2008 baseline study
that they planned to finalize and issue soon. They stressed that the national prevalence rate was
not based on current positive test results because the data for the baseline study was from 2007
and 2008. They also pointed out that the testing data were based on N-60 sampling results, since
that has been the standard sampling method used by FSIS and the industry. We believe that any
national prevalence rate based on these data may already be outdated, particularly because many
plants may have improved their intervention methods in recent years. We also question the
reliability of N-60 sampling to support the rate of positive test results used in determining the
national prevalence rate. In Phase II, we will further review the methodology and scientific
support used to compute the national prevalence rate FSIS issues.

Additionally, OIG found that FSIS’ N-60 relies on sample parameters that are questionable from
a food safety standpoint. This is because FSIS has not evaluated or justified the contamination
level for E. coli O157:H7 that is associated with its N-60 sample size and confidence level—
essentially, the amount of contaminated trim that might slip through N-60 without being
detected. For instance, in an FSIS sample of N-60, there is a 5 percent probability of missing
actual contamination that is present in 5 percent of a given lot. There is also a 55 percent
probability of missing actual contamination that is present in 1 percent of a given lot—in other
words, if the contamination level is very low, FSIS is more likely to miss contamination than to
detect it. Therefore, to maintain a high probability of detecting a pathogen with presumably as

12
  In “Nationwide Microbiological Baseline Data Collection Program for the Raw Ground Beef Component:
Domestic Beef Trimmings,” FSIS tested 1,900 samples and found that 13 samples were positive, for a percent
positive rate of 0.68 percent. In this description, each of the “samples” was a group of 60 pieces of trim.
13
   In plants that conduct their own testing, the product that FSIS samples has already been tested and passed
(approved for entry into commerce as raw beef trim) by industry, and that the FSIS test is not an independent test in
which FSIS chooses a lot off the production line before industry has gotten a test result for it.


     Audit Report 24601-09-KC                                                                                      10
low a level of contamination as E. coli O157:H7, FSIS’ sample size must increase. 14 For
example, if the contamination rate of 5 percent were lowered to a rate more reflective of the
occurrence of E. coli O157:H7, such as 1.5 percent, then to achieve a 95 percent confidence level
in detecting E. coli O157:H7, the sample size must increase substantially, even to perhaps N-200.
Otherwise, if the sample size remains at 60, then the level of confidence in finding E. coli
O157:H7 would drop from 95 percent to 60 percent. At a contamination rate of 1 percent, it
would drop to only 45 percent.

OIG maintains that testing for E. coli O157:H7 without a well supported prevalence rate hinders
the design of an appropriate sample and that FSIS must determine how to detect a lethal
contaminant that is quite scarce, even if its sample size must rise above 60 pieces. We concluded
that N-60’s limitations are severe enough that the use of this method of sampling for
E. coli O157:H7 is not especially useful for verifying that plant controls or applied interventions
are working as intended or providing assurance that establishments are not distributing
E. coli O157:H7-contaminated meat for consumption.

In order to design a better sampling method for testing for E. coli O157:H7, FSIS must first
determine the prevalence of E. coli O157:H7 in trim. 15 Ideally, FSIS would develop a process
for determining a baseline prevalence for E. coli O157:H7 in beef trim that is ongoing, relevant
from year-to-year, and that takes into account seasonal variations due to increased summer heat,
and other factors. The process should also include how often the prevalence rate should be
reassessed. Additionally, in collaboration with Congress, the industry, and the public, FSIS
should specify and justify its sample parameters and the associated contamination level that is
suitable for food safety purposes. In order to develop the best possible sampling program and
ensure transparency, FSIS should publish its proposed sampling design for public comment
before the agency implements any changes. If these steps are taken, then it is probable that the
number of sample pieces the agency needs to collect will rise.

During final processing of our report, FSIS released its “National Prevalence Estimate of
Pathogens in Domestic Beef Manufacturing Trimmings (Trim) December 2005 – January 2007”,
dated January 2011. In the report, FSIS estimated that the national prevalence of E. coli
O157:H7 in beef trim for use in the manufacture of raw ground beef was 0.39 percent, with a 95
percent confidence interval was between 0.05 percent and 0.73 percent. The 0.39 percent
prevalence rate represents the occurrence of lots tested that showed positive results for E. coli
O157:H7; it does not reflect the prevalence, or level, of contamination in a given lot of beef trim.
Therefore, we question how useful this prevalence rate will actually be in determining the
number of sample pieces to collect in redesigning FSIS’ N-60 sampling program.




14
  For any sample size, there is some probability of failing to detect contamination that is actually present in the lot.
However, for a specified sample size, such as N-60, the probability of failing to detect actual contamination
increases as the percent of actual contamination decreases.
15
  In September 2003, we made this type of recommendation in our audit of FSIS’ Oversight of Production Process
and Recall at a ConAgra Plant (Report 24601-02-KC, dated September 30, 2003).


     Audit Report 24601-09-KC                                                                                         11
OIG acknowledges that collecting additional sample pieces would strain FSIS’ collection and
laboratory resources. 16 At present, FSIS estimates that it has the resources to perform about
4,400 tests for N-60 samples yearly. To help mitigate the strain on FSIS’ resources, OIG
suggests that FSIS consider moving to a more risk-based sampling and testing approach, similar
to its ground beef sampling program. FSIS could develop profiles of high-risk plants based on
factors such as the number and quality of interventions at the plant; the volume of meat
processed; the time of the year; the plant’s number of noncompliances; the type, frequency, and
quality of the E. coli O157:H7 sampling and testing being performed by the plant; and the
percent of FSIS positive test results. FSIS should then direct its limited sampling and testing
resources towards high-risk plants.

Though sampling at higher levels may increase the workload on FSIS inspectors, we believe that
by designating a specialized team (or individual) that would supplement onsite inspectors for
these more intensive sample collections, FSIS could provide the resources it needs to improve its
sampling and testing program. FSIS is already considering this change. USDA is familiar with
using teams of this sort since the Agricultural Marketing Service is currently using contractors to
collect ground beef samples for the product it buys for the National School Lunch Program.

Additionally, some large plants are already testing hundreds of samples daily for
E. coli O157:H7. Currently, FSIS has little direct assurance that these samples and tests are
being performed according to its standards, or that the tests plants perform are similar to one
another. If FSIS could ensure that industry sampling and testing at least met FSIS standards, it
could potentially rely on industry’s results, which would allow the agency to add industry’s
much greater testing capacity to its own relatively limited resources. Such an approach would be
beneficial because (1) it would help FSIS eliminate the bottleneck caused by its own resource
limitations; and (2) it would help FSIS monitor the immediate effectiveness of controls and
interventions in place at those plants. According to FSIS officials, direct and regular collection
of industry test results by FSIS for its verification programs could raise several logistical and
legal issues, especially if the industry data were to be used for enforcement, which should first be
considered. However, the agency could consider the confidence it places in a given plant’s
sampling and testing system as one of the factors in whether it considers the plant to be at high
risk or not, which would allow it to focus its own efforts on plants where industry testing does
not meet FSIS standards.

It is also important to recognize that as more effective control measures are adopted by the
industry, the prevalence of E. coli O157:H7 contamination should continually decrease.
Eventually, a point may be reached where product testing may be of limited benefit and greater
benefit may be achieved by shifting FSIS resources to comprehensive analysis of plants’
validation of their interventions and control systems.

In any event, OIG concludes that FSIS needs to take steps to thoroughly reevaluate its sampling
and testing program. As long as the agency is performing tests for E. coli O157:H7
contamination, its sampling methodology should be providing the American public a high degree

16
  FSIS officials stated that an inspector requires about 1 hour to collect and prepare an N-60 sample for shipment to
FSIS’ laboratory.


     Audit Report 24601-09-KC                                                                                     12
of confidence in the accuracy of its testing results to detect an establishment’s failure to execute
effective interventions or process controls and, ultimately, prevent the distribution and
consumption of meat contaminated with E. coli O157:H7.

Recommendation 1
Develop a plan with specific timeframes and milestones to prioritize and perform necessary
baseline studies of beef trim and ground beef in order to determine the estimated prevalence rate
of E. coli O157:H7 for redesigning FSIS’ sampling program. The plan should include how often
the prevalence should be reassessed.

Agency Response
FSIS will develop a plan for prioritizing and performing E. coli O157:H7 baseline studies of
beef, including ground beef, trim and other ground beef components, for the purpose of
informing and improving overall FSIS verification programs for control of the pathogen. FSIS
will publish the plan for comment before it is made final.

Planned Completion Date: December 2011

OIG Position
We accept management decision.

Recommendation 2
Re-evaluate its sample parameters (size and confidence level) and redesign a sampling program
for E. coli O157:H7 in beef trim that provides higher confidence in FSIS accurately detecting
contaminated product in order to effectively verify process controls at beef processing plants
across the nation.

Agency Response
FSIS will evaluate its sampling program in the context of prevalence data and inspection
verification data. FSIS believes that effective verification of food safety systems must include
inspection of an establishment’s production process to ensure that controls are adequately
designed and implemented to prevent, eliminate or reduce contamination with E. coli O157:H7.
To improve inspection program personnel verification of process controls for the reduction of
E. coli O157:H7 at both beef slaughter and processing establishments, FSIS will be taking the
following actions during 2011. Together, these actions will give inspection program personnel
comprehensive, aggregate data on establishment process controls for E. coli O157:H7.

    •   FSIS will revise Directive 6410.1, Verifying Sanitary Dressing and Process Control
        Procedures in Slaughter Operations of Cattle of Any Age, with a special emphasis on
        improving and clarifying verification of sanitary dressing, given that contamination of

    Audit Report 24601-09-KC                                                                       13
            carcasses is the primary cause of ground beef component adulteration by E. coli
            O157:H7.

       •    FSIS will issue a new Notice regarding traceback methodology for E. coli O157:H7 in
            ground beef components after FSIS or other Federal or State agencies find ground beef
            or bench trim tests presumptive positive for E. coli O157:H7. This Notice will provide
            instructions concerning how to conduct product traceback from the grinder or bench trim
            establishment and what to do at originating supplier slaughter establishments following a
            confirmed positive for E. coli O157:H7 in ground beef, including assessing whether
            evidence of a high event period may have occurred and how to manage information
            gathered during a product traceback.

       •    FSIS will implement a new inspection procedure, the Hazard Analysis Verification
            (HAV), which will examine an establishment’s hazard analysis and decision making
            documents. The HAV will serve as a screening process to identify issues of concern in
            the design of the establishments’ food safety systems. HAVs will be performed at
            specified frequencies and when certain information prompts identify establishments that
            may have modified their HACCP system or may have failed to change their HACCP
            plan in response to a significant change in the establishments’ process. A HAV will
            verify that the establishment’s hazard analysis addresses the applicable food safety
            hazards for the process, product, and intended use. It will also verify that there is at least
            one CCP 17 for the hazards that are reasonably likely to occur and that there is support for
            any decisions that applicable hazards are not reasonably likely to occur. It will also
            verify that any prerequisite programs (such as an SOP 18, GMP 19, purchase specifications,
            etc.) which are intended to prevent the occurrence of the food safety hazard are
            adequately justified and properly implemented.

Planned Completion Date: December 2011

OIG Position
We agree that FSIS would benefit from an evaluation of its sampling program in the context of
prevalence data and inspection verification data. Further, we are pleased to see that the agency
has outlined specific plans to improve the inspection program personnel verification of process
controls for the reduction of E. coli O157:H7 in establishments in 2011. However, the agency
response does not provide clarification regarding how the planned notice, directive, and HAV
process will specifically improve the agency’s trim sampling program. Therefore, we cannot
reach management decision. In addition, FSIS’ planned procedures on HAVs should articulate
what corrective or enforcement measures will be taken on deficiencies exposed by these HAVs.



17
     Critical Control Point
18
     Standard Operating Procedure
19
     Good Manufacturing Practices


       Audit Report 24601-09-KC                                                                        14
Recommendation 3
Thoroughly document the scientific support and rationale for FSIS’ revised E. coli O157:H7
sampling program design, including the contamination level that will be associated with the new
sample parameters and how the estimated prevalence rate impacts the new design. Publish FSIS’
revised E. coli O157:H7 sampling design with its support and rationale for public comment, and
consider any recommended changes before implementing the new sampling program.

Agency Response
FSIS will develop a plan for prioritizing and performing E. coli O157:H7 baseline studies of
beef, including ground beef, trim and other ground beef components, for the purpose of
informing and improving FSIS verification programs for control of the pathogen. FSIS will
publish the plan for comment before it is made final.

FSIS also will be taking the following actions in 2011 (as stated above in response to
Recommendation #2) to improve inspection program personnel verification of food safety
systems for the prevention, elimination or reduction of E. coli O157:H7 at both raw beef
slaughter and processing establishments. Together, these actions will give inspection program
personnel comprehensive, aggregate data on establishment process controls for E. coli O157:H7.

   •   FSIS will revise Directive 6410.1, Verifying Sanitary Dressing and Process Control
       Procedures in Slaughter Operations of Cattle of Any Age, with a special emphasis on
       improving and clarifying verification of sanitary dressing, given that contamination of
       carcasses is the primary cause of ground beef component adulteration by E. coli
       O157:H7.

   •   FSIS will issue a new Notice regarding traceback methodology for E. coli O157:H7 in
       ground beef components after FSIS or other Federal or State agencies find ground beef or
       bench trim tests presumptive positive for E. coli O157:H7. This Notice will provide
       instructions concerning how to conduct product traceback from the grinder or bench trim
       establishment and what to do at originating supplier slaughter establishments following a
       confirmed positive for E. coli O157:H7 in ground beef, including assessing whether
       evidence of a high event period may have occurred and how to manage information
       gathered during a product traceback.

   •   FSIS will implement a new inspection procedure, the HAV, which will examine an
       establishment’s hazard analysis and decision making documents. The HAV will serve as
       a screening process to identify issues of concern in the design of the establishments’ food
       safety systems. HAVs will be performed at specified frequencies and when certain
       information prompts identify establishments that may have modified their HACCP
       system or may have failed to change their HACCP plan in response to a significant
       change in the establishments’ process. A HAV will verify that the establishment’s hazard
       analysis addresses the applicable food safety hazards for the process, product, and
       intended use. It will also verify that there is at least one CCP for the hazards that are
       reasonably likely to occur and that there is support for any decisions that applicable

    Audit Report 24601-09-KC                                                                     15
        hazards are not reasonably likely to occur. It will also verify that any prerequisite
        programs (such as an SOP, GMP, purchase specifications, etc.) which are intended to
        prevent the occurrence of the food safety hazard are adequately justified and properly
        implemented.

Planned Completion Date: December 2011

OIG Position
We agree that FSIS would benefit from performing E. coli O157:H7 baseline studies for the
purpose of informing and improving FSIS verification programs for control of the pathogen. We
are also pleased to see that the agency has outlined specific plans to improve the inspection
program personnel verification of process controls for the reduction of E. coli O157:H7 in
establishments in 2011. However, the agency response does not provide clarification regarding
how the planned baseline studies, notice, directive, and HAV process will specifically improve
the agency’s trim sampling program or cited inspection activities. Therefore, we cannot reach
management decision. FSIS needs to document and publish for comment the scientific support
and rationale for its revised E. coli O157:H7 sampling program design, including the
contamination level that will be associated with the new sample parameters and how the
estimated prevalence rate impacts the new design and inspection procedures.

Recommendation 4
Develop a detailed operational plan with specific timeframes and milestones to implement an
inspection system that focuses E. coli O157:H7 sampling and testing resources primarily at
plants that are likely to be of higher risk, and consider the use of specialized sample collection
teams.

Agency Response
FSIS will evaluate its sampling program in the context of prevalence data and inspection
verification data. FSIS believes that effective verification of food safety systems must include
inspection of an establishment’s production process to ensure that controls are adequately
designed and implemented to prevent, eliminate or reduce contamination with E. coli O157:H7.
To improve inspection program personnel verification of process controls for the reduction of
E. coli O157:H7 at both beef slaughter and processing establishments, FSIS will be taking the
following actions during 2011. Together, these actions will give inspection program personnel
comprehensive, aggregate data on establishment process controls for E. coli O157:H7.

    •   FSIS will revise Directive 6410.1, Verifying Sanitary Dressing and Process Control
        Procedures in Slaughter Operations of Cattle of Any Age, with a special emphasis on
        improving and clarifying verification of sanitary dressing, given that contamination of
        carcasses is the primary cause of ground beef component adulteration by E. coli
        O157:H7.



    Audit Report 24601-09-KC                                                                         16
    •   FSIS will issue a new Notice regarding traceback methodology for E. coli O157:H7 in
        ground beef components after FSIS or other Federal or State agencies find ground beef
        or bench trim tests presumptive positive for E. coli O157:H7. This Notice will provide
        instructions concerning how to conduct product traceback from the grinder or bench trim
        establishment and what to do at originating supplier slaughter establishments following a
        confirmed positive for E. coli O157:H7 in ground beef, including assessing whether
        evidence of a high event period may have occurred and how to manage information
        gathered during a product traceback.

    •   FSIS will implement a new inspection procedure, the HAV, which will examine an
        establishment’s hazard analysis and decision making documents. The HAV will serve as
        a screening process to identify issues of concern in the design of the establishments’ food
        safety systems. HAVs will be performed at specified frequencies and when certain
        information prompts identify establishments that may have modified their HACCP
        system or may have failed to change their HACCP plan in response to a significant
        change in the establishments’ process. A HAV will verify that the establishment’s
        hazard analysis addresses the applicable food safety hazards for the process, product, and
        intended use. It will also verify that there is at least one CCP for the hazards that are
        reasonably likely to occur and that there is support for any decisions that applicable
        hazards are not reasonably likely to occur. It will also verify that any prerequisite
        programs (such as an SOP, GMP, purchase specifications, etc.) which are intended to
        prevent the occurrence of the food safety hazard are adequately justified and properly
        implemented.

Planned Completion Date: December 2011

OIG Position
We agree that FSIS would benefit from an evaluation of its sampling program in the context of
prevalence data and inspection verification data. We are also pleased to see that the agency has
outlined specific plans to improve the inspection program personnel verification of process
controls for the reduction of E. coli O157:H7 in establishments in 2011. However, the agency
response does not provide clarification regarding how the planned notice, directive, and HAV
process will specifically improve the agency’s trim sampling program and inspection activities to
focus on plants that are likely to be of higher risk. Therefore, we cannot reach management
decision. FSIS needs to develop a detailed operational plan with specific timeframes and
milestones to implement an inspection system that focuses E. coli O157:H7 sampling and testing
resources primarily at plants that are likely to be of higher risk and consider the use of
specialized sample collection teams.




    Audit Report 24601-09-KC                                                                    17
Scope and Methodology
In November 2009, because of concerns regarding the efficacy of E. coli O157:H7 testing of
beef trim products, the Chairwoman of the Subcommittee on Agriculture, Rural Development,
Food and Drug Administration, and Related Agencies of the House Appropriations Committee
requested that USDA’s Inspector General investigate the scientific merits and potential
shortcomings of N-60 sampling design and application of the test results from N-60 samples of
beef trim products.

Between January and June 2010, we performed our audit at FSIS Headquarters in
Washington, D.C., and the Eastern Laboratory in Athens, Georgia. In addition to working with
FSIS officials, we spoke with representatives of two meat industry groups, officials from two
consumer groups, academics from four universities, and representatives of three other agencies
inside USDA to gain perspective on the challenges facing FSIS when sampling and testing for
E. coli O157:H7. In addition, we reviewed documentation from FSIS; international agencies
such as the Food and Agriculture Organization of the United Nations, World Health
Organization, Codex Alimentarius, and the European Union’s Food Standards Agency; and
scientific literature from organizations devoted to food safety and illness prevention.

FSIS Headquarters

At FSIS Headquarters, we interviewed the appropriate senior-level officials and determined the
responsibilities of the following divisions as they relate to E. coli O157:H7 sampling and testing:

    •   Policy and Program Development—this division provides leadership in the identification
        of policy needs, develops policy solutions to address the intent and application of
        verification and enforcement policy in plant activities, and provides direct technical
        support to FSIS field personnel.

    •   Field Operations—this division manages the national inspection and enforcement
        activities. Further, within this division we conducted additional interviews with
        representatives of the recall group that coordinates all recall activities.

    •   Program Evaluation, Enforcement, and Review—this division assesses FSIS’ program
        functions and operations. We interviewed representatives from the Program Evaluation
        and Improvement Staff who provide leadership and technical expertise in the area of
        program evaluation.

    •   Data Integration and Food Protection—this division coordinates all emergency response,
        food defense, and data analysis activities within FSIS. We interviewed representatives
        of the Data Analysis and Integration Group, which is responsible for evaluating
        individual FSIS data streams, ensuring data analyses are consistent and of high quality,
        and conducting data analyses for agency decisions.

    •   Public Health Science—this division provides expert scientific analysis, advice, data, and
        recommendations on all matters involving public health and science that are of concern

    Audit Report 24601-09-KC                                                                    18
        to FSIS. We spoke with officials at the Regulatory Field Services Laboratory in Athens,
        Georgia, who support FSIS’ farm-to-table food safety strategies at three field
        laboratories which conduct scientific tests in the disciplines of chemistry, microbiology,
        and pathology.

Others Outside of USDA

We also interviewed the following groups, entities, and universities about E. coli O157:H7
sampling, testing, and control:

   •   Beef industry groups—one group represented U.S. cattle producers and the other
       represented companies that process red meat in the United States and their suppliers
       throughout America.

   •   Consumer advocates—one consumer group is a non-profit organization that advocates for
       policies it believes will result in healthy, safe food and the other group is a non-profit
       public health group dedicated to preventing illness and death from food-borne pathogens.

   •   Academic sources—professors with expertise in food safety were interviewed from the
       University of Nebraska-Lincoln, Kansas State University, Iowa State University, and
       Texas A&M University about E. coli O157:H7 issues currently facing the meat industry.

Other Agencies Within USDA

We talked to the following USDA agencies about E. coli O157:H7 detection and control:

   •   The Agricultural Research Service conducts research to develop solutions to agricultural
       problems of high national priority, in part to ensure high quality food, ensure safe food,
       sustain a competitive agricultural economy, enhance natural resources, and provide
       economic opportunities for rural communities.

   •   The Agricultural Marketing Service develops quality grading standards for agricultural
       commodities, administers marketing regulatory programs, oversees marketing
       agreements and orders, and makes food purchases for Federal food assistance programs.

   •   The Animal and Plant Health Inspection Service is charged with protecting and
       promoting U.S. agricultural health, regulating genetically engineered organisms,
       administering the Animal Welfare Act, and carrying out wildlife management activities.

We conducted this performance audit in accordance with Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




    Audit Report 24601-09-KC                                                                    19
During the course of our audit we did not verify information in any FSIS electronic information
system, and make no representation regarding the adequacy of any agency computer systems or
the information generated from them.




    Audit Report 24601-09-KC                                                                  20
Appendix A: Response to Congressional Request for Information
Regarding FSIS’ E. coli O157:H7 Testing
The audit request from the Chairwoman of the Subcommittee on Agriculture, Rural
Development, Food and Drug Administration, and Related Agencies of the House
Appropriations Committee posed a number of questions. What follows are our responses in
these areas:

   1. What is the prevalence of E. coli O157:H7 in domestic beef trim used for raw ground
      beef production at processing facilities in the United States? When and how was this
      estimate reached? How frequently will it be re-assessed?

       FSIS has not established a prevalence rate for E. coli O157:H7 in a given lot of beef trim.
       As discussed in the finding in this report, we are recommending that FSIS develop and
       implement a plan with specific timeframes and milestones to prioritize and perform
       necessary baseline studies of beef trim and ground beef in order to determine the
       estimated prevalence rate of E. coli O157:H7 for redesigning FSIS’ sampling program.
       This plan should include how often the prevalence should be reassessed.

       During final processing of our report, FSIS released its “National Prevalence Estimate of
       Pathogens in Domestic Beef Manufacturing Trimmings (Trim) December 2005 – January
       2007”, dated January 2011. In the report, FSIS estimated that the national prevalence of
       E. coli O157:H7 in beef trim for use in the manufacture of raw ground beef was 0.39
       percent, with a 95 percent confidence interval was between 0.05 percent and 0.73
       percent. It also includes the methods used to calculate the pathogen estimates and
       provides additional information on the statistical procedures used in the study. The 0.39
       percent prevalence rate represents the occurrence of lots tested that showed positive
       results for E. coli O157:H7; it does not reflect the prevalence, or level, of contamination
       in a given lot of beef trim. Therefore, we question how useful this prevalence rate will
       actually be in determining the number of sample pieces to collect in redesigning FSIS’ N-
       60 sampling program.

   2. What is the confidence level of the N-60 sampling method as currently performed? Is that
      level appropriate for ground beef [trim]?

       In FSIS’ current sample of N-60, there is a 95 percent confidence level of detecting
       contamination when it is present in 5 percent of the lot. There is just a 45 percent
       confidence level of detecting E. coli O157:H7 contamination when it is present in only
       1 percent of the lot—in other words, if the contamination level is very low, FSIS is more
       likely to miss contamination than to detect it. Therefore, to maintain a high probability of
       detecting a pathogen with presumably as low a level of contamination as
       E. coli O157:H7, FSIS’ sample size must increase. As discussed in the finding in this
       report, we are recommending that FSIS re-evaluate its sample parameters (size and
       confidence level) and redesign a sampling program for E. coli O157:H7 in beef trim that
       provides higher confidence in FSIS accurately detecting contaminated product in order to
       effectively verify process controls at beef processing plants across the nation.

    Audit Report 24601-09-KC                                                                    21
     3. What is the definition of a product “lot” used in the N-60 testing and how was this
        definition determined? How is this definition applied to individual processing
        establishments? Is this an appropriate application?

         FSIS allows processing plants to define a “lot.” 20 In defining lots, plants may consider a
         wide range of factors, including (a) any scientific, statistically based sampling
         program that the establishment uses to distinguish between segments of production;
         (b) standard operating procedures or other prerequisite programs used to control
         E. coli O157:H7 cross-contamination between raw beef components during production;
         (c) processing interventions; and (d) beef trimmings and raw beef components or rework
         carried from one production period to another. In the past, plants were allowed to define
         a lot as the beef trim produced from one clean up to the next clean up—often a full day’s
         production. However, according to FSIS, clean up to clean up alone is no longer a
         supportable basis for defining a lot.

         According to FSIS officials, most large producers of beef trim define a lot as either one
         2,000 pound combo-bin or multiple combo-bins (generally five combo-bins with a total
         weight of 10,000 pounds). 21 FSIS generally defines its sample lot to match the
         establishment’s lot size. However, FSIS may permit an establishment that routinely
         samples its products under its own testing program to reduce its lot size on the day that
         FSIS conducts sampling, which allows it to hold less product until FSIS test results are
         returned. These plants must support their sampling program, define their lots
         microbiologically using sample data, and conduct robust sampling throughout the day to
         support lot sizes of less than one day’s production.

         According to HACCP principles it is appropriate for companies to define their lot size
         because HACCP dictates that the establishments are themselves responsible for
         governing the factors that affect their production. Industry and FSIS officials are
         generally supportive of this principle. Under HACCP, the plant determines the lot size
         through its hazard analysis. Whatever the plant decides, FSIS expects that the plant uses
         a scientific basis to meet the premise of HACCP, and FSIS inspectors are expected to
         verify that they have done so.

         OIG agrees that a plant should use a scientific basis to support its defined lot size, and
         FSIS inspectors should verify it meets the premise of HACCP. We will observe and
         analyze this area further in our Phase II audit.




20
  FSIS Directive 10,010.1, dated March 2010, states that “[t]he establishment is responsible for defining the
sampled lot.”
21
   A combo-bin for OIG’s purposes is defined as a 48 inch x 40 inch x 40 inch size container of beef carcass
trimmings.

     Audit Report 24601-09-KC                                                                                   22
4. How does this definition affect the statistical viability of this test? How confident are we
   that lots testing negative are truly negative if the definition of “lot” varies among
   establishments?

   The lot, from a statistical perspective, is the universe from which FSIS takes its 60
   samples. Since the lots are generally quite large, variability in their size has relatively
   little, if any, effect on the viability of testing. For example, if all other variables are
   constant, it makes little difference if one takes 60 samples from one 2,000 pound combo
   lot or a lot of five combos (total weight of 10,000 pounds).

   As discussed in our finding in this report, OIG questions the effectiveness of N-60
   sampling, but not due to problems with the size of the lot, or the universe. It is important
   to emphasize that no method of statistical sampling will result in absolute certainty that
   the lot is free of E. coli O157:H7 contamination, particularly since E. coli O157:H7 has
   such a low occurrence rate in final trim product and is not randomly dispersed throughout
   the lot.

5. Are all samples collected, stored, shipped, and analyzed by trained FSIS employees?

   Trim samples are collected by employees from both FSIS and industry. FSIS personnel
   collect all of the pieces of trim FSIS needs for its regulatory samples and the industry
   employees collect their own trim samples for testing. FSIS officials stated that all its
   field employees including Inspectors in Charge (IIC), Frontline Supervisors (FLS) and
   Public Health Veterinarians (PHV) are trained to properly collect, store, and ship FSIS
   samples.

   FSIS’ E. coli O157:H7 testing is performed at the agency’s internationally accredited
   laboratories and the analysis is conducted by competent scientific personnel who have
   been certified to test for E. coli O157:H7.

   In Phase II of our audit, we will review how FSIS and the industry employees are trained
   to collect, store, ship, and analyze samples.

6. Are laboratories instructed to reject samples that do not meet minimum quality
   standards? If so, what are those minimum quality standards? How is it assured each
   sample meets them?

   We confirmed that FSIS laboratories have developed internal procedures for discarding
   samples that do not meet minimum quality standards. When samples are received at the
   laboratory, to assure that each sample meets all the minimum quality standards, the
   laboratory technician inspects and documents the condition of the container, shipping
   seals, accompanying paperwork, and product. A temperature is then taken of the product
   and the sample information is entered into the automated laboratory tracking system,
   which includes any applicable information on why a sample was rejected. Laboratory
   procedures list over 30 reasons and sub-reasons why a sample might be rejected



Audit Report 24601-09-KC                                                                      23
           (including temperature, target tissue not received, no form received with sample, sample
           security seal problem, and sample container leaking).

           In Phase II of our audit, we will review how the industry ensures its private labs are
           rejecting samples that do not meet minimum quality standards.

       7. Are the minimum standards associated with sample collection, storage, shipment, and
          analysis adequate? What type of testing standards must be met by laboratories analyzing
          the samples?

           FSIS has provided direction to inspection personnel for such responsibilities as collecting
           and submitting samples and acting on a positive FSIS test result. FSIS laboratories must
           also follow procedures that outline the minimum standards that samples must meet and
           that address issues like test methods, the receipt of samples, logging samples in, shipping
           them, and training staff. During Phase II of our audit, we will examine whether FSIS
           inspection personnel are following FSIS sampling procedures and assess their adequacy.

           FSIS laboratories that analyze E. coli O157:H7 samples meet two accreditations. 22
           However, there is currently no legal or other requirement that FSIS laboratories obtain
           any accreditations. The first accreditation is by the International Standards Organization,
           which specifies the general requirements for a laboratory to demonstrate its competence
           to carry out tests. The requirements are applicable to all organizations that perform tests
           or calibrations. The second accreditation is the American Association for Laboratory
           Accreditation (A2LA), which is a public service membership organization dedicated to
           operating a nationwide, broad spectrum laboratory accreditation system. Further, we
           confirmed that A2LA conducts yearly external audits of FSIS’ laboratories, and FSIS
           conducts its own internal audits to assure that the laboratories are following the
           accrediting body’s, and the laboratory’s, own policies and procedures.

           During Phase II of our audit, we will also review the standards industry follows
           associated with sample collection and laboratory analysis.

       8. Because E. coli O157:H7 is not necessarily distributed homogeneously in a product, how
          did the agency decide on its current collection methodology? Are samples collected truly
          representative of the entire lot?

           FSIS officials realized that in selecting a robust trim sampling program they needed to
           consider the fact that E. coli O157:H7 is not homogeneously distributed. Research has
           shown that E. coli O157:H7 is most likely found on the surface tissue of the trim and
           does not reside in the inner tissue. Therefore, FSIS samples surface tissue in order to
           increase the likelihood that it will find the pathogen.

           Combo bins are often over three feet deep and due to concerns for the safety of their
           sample collectors, FSIS requires that inspectors sample only the top layers of trim. Based

22
     “Accreditation” is a formal recognition of competence that a laboratory can perform specific tests.


       Audit Report 24601-09-KC                                                                            24
        on our discussions with agency and industry officials, as well as academics, we agree that
        so long as the bins are filled without prejudice, sampling from the top layers of trim
        should not impair the sample design. Samples gathered in this fashion can be considered
        as representative of the entire lot.

     9. Has FSIS established a protocol for reassessing an establishment’s HACCP plan based
        upon N-60 test results? What actions are taken at an establishment after a positive
        N-60 test result?

        FSIS is responsible for verifying that slaughter and processing establishments implement
        food safety systems that comply with HACCP regulations. FSIS has established
        procedures for what actions should be taken after an FSIS positive E. coli O157:H7 test,
        including reviewing the establishment’s HACCP plan, by specially trained personnel
        during a Food Safety Assessment.

        After a positive FSIS test result, FSIS staffs are instructed to (1) collect supplier
        information; 23 (2) review establishment testing results; (3) verify disposition of affected
        product; (4) conduct followup sampling at the establishment and its suppliers; (5) conduct
        verification activities at the supplying establishment; (6) conduct a Food Safety
        Assessment 24 at the establishment, and (7) take enforcement actions if warranted.

        HACCP also requires that after a positive FSIS or industry test result, the establishment
        should use its own testing information to identify failures in its controls, take appropriate
        corrective actions, and reassess its HACCP plan, if applicable. For example, after a
        positive test result at one establishment, it was determined that an antimicrobial
        intervention had inadvertently been turned off and needed to be restarted. However,
        according to FSIS officials, there are circumstances in 9 Code of Federal Regulations
        417.3 that if an establishment has already addressed E. coli O157:H7 in their HACCP
        plan, they may not have to reassess their plan in response to a positive test result.

        During Phase II of our audit, we will review how FSIS and the industry use positive N-60
        test results.

     10. What is the implication of a positive N-60 test result on the individual lot tested? On
         other lots from the same establishment produced on the same date?




23
  With the issuance of FSIS Notice 58-10, FSIS is now collecting supplier information at the time of sample
collection.
24
  A comprehensive Food Safety Assessment considers all food safety aspects that relate to the establishment and its
products, the nature and source of all materials received, the establishment’s processes, and the environment of the
establishment. The Food Safety Assessment is designed to examine the validity of the Sanitation Standard
Operating Procedures, pre-requisite programs, testing programs, and any other programs that constitute the
establishment’s HACCP system.


     Audit Report 24601-09-KC                                                                                    25
           FSIS requires lots with a positive FSIS or industry test result for E. coli O157:H7 to be
           destroyed or used in a product that has a validated lethality treatment, such as cooking. 25

           The implication for other lots produced at the same establishment and on the same date
           depends on the establishment’s operations and materials used. When ground beef is
           produced, it may be manufactured from trim and other ground beef components obtained
           from one or multiple suppliers. If product from one lot was found positive for
           E. coli O157:H7, HACCP regulations require a plant to provide a scientific basis to
           justify why any raw ground product produced from these source materials should not be
           considered adulterated. If the plant cannot demonstrate how its final production lots are
           scientifically independent, then all final product lots produced using the same source
           materials would be implicated and subject to cooking, discard, or recall.

       11. How are the FSIS N-60 test results and the establishment’s N-60 test results correlated?
           How do N-60 testing protocols differ between FSIS and the industry?

           According to agency procedures, when FSIS finds product to be E. coli O157:H7
           positive, the inspection staff issues a noncompliance record, which requires the
           establishment to review its control procedures and take corrective actions. The only time
           a noncompliance report is not issued when FSIS finds a positive is when the company
           simultaneously conducted a test and its test also showed a positive result, in which case
           the product should have been destroyed or fully cooked. Establishments with a program
           to routinely divert all FSIS-tested product to cooking would not receive a noncompliance
           report, as well. Further, the inspectors are to ensure that the product was disposed of
           properly.

           In contrast, FSIS procedures do not allow for prompt correlation of plant testing results
           with FSIS test results or observation of disposition of E. coli O157:H7 positive product.
           According to FSIS officials, establishments are required to create a record of the positive
           in their HACCP system, in which FSIS has full access. However, plants are not required
           to notify FSIS of positive test results when they occur. FSIS procedures only require
           company test results be made available to FSIS inspectors, and that the results be
           reviewed by inspectors on a weekly basis.

           FSIS has established N-60 testing protocols for its inspectors in FSIS Directive 10,010.1.
           However, FSIS has not defined what constitutes agency-approved N-60 sampling
           methods and has no requirement that industry follow any specific methodologies or
           standards for collection, storage, or shipping. During Phase II of our audit, we will
           review how industry sampling and testing protocols vary among plants and differ from
           FSIS standards.

       12. What are the implications of the USDA label associated with a negative N-60 test?



25
     Directive 10,010.1, March 2010 notes this requirement in FSIS tested product.


       Audit Report 24601-09-KC                                                                       26
       The purpose of providing a USDA-approved testing label on product containers would be
       to give receiving establishments information regarding the testing of raw ground beef
       components for the presence of E. coli O157:H7. Industry and FSIS have differing
       thoughts on the issues surrounding labeling of N-60 trim. Industry officials believe that
       this label will provide receiving establishments with necessary information regarding the
       testing of raw ground beef components in lieu of a Certificate of Analysis (COA) when a
       COA does not accompany tested products sold through a distributor. FSIS officials
       believe grinders would assume that there is no risk in any labeled trim they are buying,
       and FSIS does not want to encourage this assumption since grinders have an obligation to
       sell final product that is not contaminated with E. coli O157:H7.

During Phase II of our audit, we will review if and how industry is currently labeling FSIS N-60
tested trim.




    Audit Report 24601-09-KC                                                                  27
Appendix B: Update to January 2008 Memorandum to Former
Deputy Secretary Conner on E. coli Sampling and Testing
We followed up on matters reported in our memorandum, “Food Safety and Inspection Service
Sampling and Testing of E. coli,” issued January 29, 2008, related to examining the adequacy
and effectiveness of FSIS’ N-60 sampling method. In the memorandum, we reported that
(1) FSIS needs to gather a more representative sample; (2) FSIS needs to minimize or eliminate
discarded samples; and (3) FSIS needs to reduce turnaround time on laboratory results. To
address our objective, we conducted interviews with USDA and non-USDA officials and
reviewed FSIS documents and data produced since our January 29, 2008, letter.

According to industry experts, academics, and USDA officials, large producers have moved
towards taking multiple samples from the same ground beef lot at intervals during the day, some
as often as every 15 minutes. In addition, in July 2010, the Agricultural Marketing Service
strengthened its National School Lunch Program purchase specifications for ground beef to
include increasing microbiological sampling frequency for finished products to every 15 minutes
and instituting additional rejection criteria for source trimmings. We believe that these changes
should result in plants gathering a more representative sample, but we will not reach any
conclusions until we have an opportunity to visit plants during Phase II of our audit.

FSIS has also taken steps to minimize the discarding of samples by documenting the reasons for
discards and sending a monthly report to the districts for a followup review. An analysis of
discard rates conducted by OIG for calendar years 2008, 2009, and part of 2010 found that there
has been a significant decrease in the number of samples discarded by FSIS’ laboratories. 26 In
addition, officials expressed confidence that the new sample reservation system in FSIS’ Public
Health Information System (PHIS) will correct the problem of uncollected samples. When PHIS
is implemented, FSIS needs to monitor the system to assure that PHIS will minimize or eliminate
discard samples and help the agency to reach its E. coli O157:H7 sampling goals.

FSIS continues to experience delays in returning testing results to plants. We will followup in
the next phase of this audit to determine whether FSIS or industry have identified any potential
solutions for reducing these delays at this time.

Overall, FSIS sees its testing program as a means for ensuring that plants take adequate safety
precautions. From the agency’s perspective, in order to ensure food safety, plants must
implement effective and supportable HACCP systems including microbiological intervention. In
addition, consumers must be educated about properly cooking ground beef. During the course of
our review, we found that FSIS has made a number of improvements to its E. coli O157:H7
sampling and testing program to accomplish these intended program objectives, including such
things as:



26
  Our analysis shows that for the discard categories selected by OIG, there was a 40 percent drop in discards from
2008 to 2009 levels (865 to 516 discards) and indications of a deeper drop in 2010 (showing only 132 discards as of
May 2010).


     Audit Report 24601-09-KC                                                                                   28
   (1) Updating guidance concerning trim sampling, followup sampling, tracing product back to
       the source of the contamination, and conducting food safety assessments;

   (2) Analyzing the results of controls used by industry to control E. coli O157:H7 in beef
       operations (based in part on this information, FSIS issued a best practices document);

   (3) Participating in the President’s Food Safety Working Group, which is advising on how to
       improve the U.S. food safety system for the twenty-first century; and

   (4) Expanding its mode of food safety outreach to include Twitter, Facebook, and YouTube.
       The FSIS twitter feed, USDAFoodSafety, grew from 751 followers in 2009 to more than
       55,000 in 2010.

During the course of our review we also identified that the industry is researching technology to
reduce E. coli O157:H7 contamination to include developing more effective interventions to
reduce or eliminate E. coli O157:H7 and developing vaccines to control E. coli O157:H7 in
living animals.

We will assess the impact of these improvements in Phase II of our audit while performing steps
to (1) observe the collection of beef trim samples by FSIS and employees at slaughter and
processing establishments; (2) analyze how the beef industry’s sampling and testing protocols
vary among plants and compare to FSIS standards; (3) review the quality of private laboratory
services provided to the beef industry for testing and discarding samples; and (4) examine how
test results are used by FSIS and the beef industry to improve food safety.




    Audit Report 24601-09-KC                                                                    29
Abbreviations

A2LA .......................... American Association for Laboratory Accreditation
CCP ............................. Critical Control Point
COA ............................ Certificate of Analysis
FLS .............................. Front Line Supervisor
GMP ............................ Good Manufacturing Practices
FSIS............................. Food Safety and Inspection Service
HACCP ....................... Hazard Analysis and Critical Control Points
HAV ............................ Hazard Analysis Verification
IIC ............................... Inspector-In-Charge
PHIS ............................ Public Health Information System
PHV............................. Public Health Veterinarian
OIG ............................. Office of Inspector General
SOP ............................. Standard Operating Procedure
USDA.......................... United States Department of Agriculture




     Audit Report 24601-09-KC                                                       30
Agency’s Response




                             USDA’S



FOOD SAFETY AND INSPECTION SERVICE



          RESPONSE TO AUDIT REPORT




  Audit Report 24601-09-KC            31
      United States              Food Safety                  Washington, D.C.
      Department of              and Inspection               20250
      Agriculture                Service


         TO:       Gil Harden
                   Assistant Inspector General for Audit
                   Office of Inspector General

    FROM:          Alfred V. Almanza           /s/                 January 28, 2011
                   Administrator
                   Food Safety and Inspection Service

SUBJECT:           Office of Inspector General (OIG) Official Draft Audit Report – Food Safety and
                   Inspection Service N-60 Testing Protocol for E. coli O157:H7 – Phase I, Report
                   number 24601-09-KC


The Food Safety and Inspection Service (FSIS) has reviewed this report and responded to each
of the recommendations. We also have provided some general comments on the audit report
findings, which clarify our proposed actions in response to the recommendations. We
appreciate OIG’s efforts to accurately characterize the N-60 sampling program and to provide
creative recommendations that give FSIS the latitude needed to improve it.

General Comments

As noted in the report, sample collection and analysis is only one of the HACCP verification
activities provided for under the regulations in 9 CFR 417. And specifically, FSIS sees N-60
sampling of beef trim as only one of a number of verification activities that FSIS conducts
regarding establishment process controls for E. coli O157:H7. FSIS sampling of beef trim works
along with inspection and other verification activities, including FSIS sampling of ground beef
and other ground beef components and the review of establishment testing results, to detect
and reduce E. coli O157:H7 in beef products.

In response to the Congressional requestor, the audit report focuses on the statistical design
and outcome of discrete N-60 sampling events. We do not dispute the statistics presented in
the report on this subject, but emphasize, as stated above, that a single N-60 sampling result is
not viewed apart from other verification activities. Note that along with sampling and carcass-
by-carcass inspection, more than 500,000 inspection procedures were performed in CY2010 at
roughly 650 slaughter establishments that would also be subject to trim sampling. These
inspection procedures, performed daily at slaughter establishments, play an important role in
ensuring establishments are producing safe and wholesome products.

Further, to detect changes over time, an N-60 result often is analyzed along with not only other
verification data but also other N-60 results. This is especially true among establishments who
themselves take numerous N-60 samples over time as part of a statistical process control
program. Notably, FSIS has recommended that industry take numerous, regular N-60 samples
as part of a statistical process control program since 2008.1 Thus, although a single N-60
sample result may not indicate definitively the success or failure of an establishment’s process


1
 Compliance Guideline for Sampling Beef Trimmings for Escherichia coli O157:H7, Draft for Stakeholder Comment, FSIS, August
12, 2008.



FSIS Form 2630-9 (6/86)                      EQUAL OPPORTUNITY IN EMPLOYMENT AND SERVICES
                                                           2


controls for beef trim, it can be an important component of process control and verification
programs, especially if the establishment or FSIS has taken multiple N-60 samples over time.

In regard to the recommendation that FSIS determine a national prevalence, FSIS agrees that
this is important information for properly designing a sampling program.2 However, a national
prevalence estimate is not sufficient information to determine how to collect a sample from a lot,
owing to the distinction between determining how many lots to test and how to collect a sample
from each lot. In other words, prevalence data could inform how many lots to test nationwide,
but not how to collect a sample from each lot. A sampling program, such as FSIS’ trim sampling
program, is a different concept than a sample collection method, such as N-60.

Our responses to the recommendations should be read in light of this discussion. Although the
audit report acknowledges FSIS’ approach of using sampling and inspection to verify an
establishment’s food safety plan and to ensure the safety of the food supply, the report does not
consider the combined effect of these activities and instead considers sampling in isolation.
The audit report criticizes FSIS’ trim sampling program for having insufficient statistical power to
detect contaminated product with high confidence. FSIS’ mission is not to screen the food
supply through testing, but to ensure production of safe and wholesome food through
inspection.

In response to the recommendations, needed improvements to FSIS verification of process
controls for E. coli O157:H7 in beef trim and other ground beef components will include changes
to multiple inspection and analytical activities, focusing on the improved collection and
integration of various data to better identify establishments with process control problems.
Further, FSIS agrees that a plan for conducting additional baselines for beef trim and other
products is necessary, but these baselines also will be used to inform FSIS verification of
establishment food safety systems over time, rather than to design an acceptance testing
method for individual lots of product.

Recommendation 1

Develop a plan with specific timeframes and milestones to prioritize and perform necessary
baseline studies of beef trim and ground beef in order to determine the estimated prevalence
rate of E. coli O157:H7 for redesigning FSIS’ sampling program. The plan should include how
often the prevalence should be reassessed.

Agency Response

FSIS will develop a plan for prioritizing and performing E. coli O157:H7 baseline studies of beef,
including ground beef, trim and other ground beef components, for the purpose of informing and
improving overall FSIS verification programs for control of the pathogen. FSIS will publish the
plan for comment before it is made final.

Completion Date: December 2011




2
 FSIS recently published the national prevalence estimate of pathogen contamination of trim based on the 2005-07 beef trim
baseline study: http://www.fsis.usda.gov/PDF/Baseline_Data_Domestic_Beef_Trimmings_Rev.pdf.
                                            3


Recommendation 2
Re-evaluate its sample parameters (size and confidence level) and redesign a sampling
program for E. coli O157:H7 in beef trim that provides higher confidence in FSIS accurately
detecting contaminated product in order to effectively verify process controls at beef processing
plants across the nation.

Agency Response

FSIS will evaluate its sampling program in the context of prevalence data and inspection
verification data. FSIS believes that effective verification of food safety systems must include
inspection of an establishment’s production process to ensure that controls are adequately
designed and implemented to prevent, eliminate or reduce contamination with E. coli O157:H7.
To improve inspection program personnel verification of process controls for the reduction of E.
coli O157:H7 at both beef slaughter and processing establishments, FSIS will be taking the
following actions during 2011. Together, these actions will give inspection program personnel
comprehensive, aggregate data on establishment process controls for E. coli O157:H7.

    ·   FSIS will revise Directive 6410.1, Verifying Sanitary Dressing and Process Control
        Procedures in Slaughter Operations of Cattle of Any Age, with a special emphasis on
        improving and clarifying verification of sanitary dressing, given that contamination of
        carcasses is the primary cause of ground beef component adulteration by E. coli
        O157:H7.
    ·   FSIS will issue a new Notice regarding traceback methodology for E. coli O157:H7 in
        ground beef components after FSIS or other Federal or State agencies find ground beef
        or bench trim tests presumptive positive for E. coli O157:H7. This Notice will provide
        instructions concerning how to conduct product traceback from the grinder or bench trim
        establishment and what to do at originating supplier slaughter establishments following
        a confirmed positive for E. coli O157:H7 in ground beef, including assessing whether
        evidence of a high event period may have occurred and how to manage information
        gathered during a product traceback.
    ·   FSIS will implement a new inspection procedure, the Hazard Analysis Verification
        (HAV), which will examine an establishment’s hazard analysis and decision making
        documents. The HAV will serve as a screening process to identify issues of concern in
        the design of the establishments’ food safety systems. HAVs will be performed at
        specified frequencies and when certain information prompts identify establishments that
        may have modified their HACCP system or may have failed to change their HACCP
        plan in response to a significant change in the establishments’ process. A HAV will
        verify that the establishment’s hazard analysis addresses the applicable food safety
        hazards for the process, product, and intended use. It will also verify that there is at
        least one CCP for the hazards that are reasonably likely to occur and that there is
        support for any decisions that applicable hazards are not reasonably likely to occur. It
        will also verify that any prerequisite programs (such as an SOP, GMP, purchase
        specifications, etc.) which are intended to prevent the occurrence of the food safety
        hazard are adequately justified and properly implemented.

Completion Date: December 2011
                                            4


Recommendation 3
Thoroughly document the scientific support and rationale for FSIS’ revised E.coli O157:H7
sampling program design, including the contamination level that will be associated with the new
sample parameters and how the estimated prevalence rate impacts the new design. Publish
FSIS’ revised E. coli O157:H7 sampling design with its support and rationale for public
comment, and consider any recommended changes before implementing the new sampling
program.

Agency Response

FSIS will develop a plan for prioritizing and performing E. coli O157:H7 baseline studies of beef,
including ground beef, trim and other ground beef components, for the purpose of informing and
improving FSIS verification programs for control of the pathogen. FSIS will publish the plan for
comment before it is made final.

FSIS also will be taking the following actions in 2011 (as stated above in response to
Recommendation #2) to improve inspection program personnel verification of food safety
systems for the prevention, elimination or reduction of E. coli O157:H7 at both raw beef
slaughter and processing establishments. Together, these actions will give inspection program
personnel comprehensive, aggregate data on establishment process controls for E. coli
O157:H7.

   ·   FSIS will revise Directive 6410.1, Verifying Sanitary Dressing and Process Control
       Procedures in Slaughter Operations of Cattle of Any Age, with a special emphasis on
       improving and clarifying verification of sanitary dressing, given that contamination of
       carcasses is the primary cause of ground beef component adulteration by E. coli
       O157:H7.
   ·   FSIS will issue a new Notice regarding traceback methodology for E. coli O157:H7 in
       ground beef components after FSIS or other Federal or State agencies find ground beef
       or bench trim tests presumptive positive for E. coli O157:H7. This Notice will provide
       instructions concerning how to conduct product traceback from the grinder or bench trim
       establishment and what to do at originating supplier slaughter establishments following a
       confirmed positive for E. coli O157:H7 in ground beef, including assessing whether
       evidence of a high event period may have occurred and how to manage information
       gathered during a product traceback.
   ·   FSIS will implement a new inspection procedure, the Hazard Analysis Verification (HAV),
       which will examine an establishment’s hazard analysis and decision making documents.
       The HAV will serve as a screening process to identify issues of concern in the design of
       the establishments’ food safety systems. HAVs will be performed at specified
       frequencies and when certain information prompts identify establishments that may have
       modified their HACCP system or may have failed to change their HACCP plan in
       response to a significant change in the establishments’ process. A HAV will verify that
       the establishment’s hazard analysis addresses the applicable food safety hazards for the
       process, product, and intended use. It will also verify that there is at least one CCP for
       the hazards that are reasonably likely to occur and that there is support for any decisions
       that applicable hazards are not reasonably likely to occur. It will also verify that any
                                             5


        prerequisite programs (such as an SOP, GMP, purchase specifications, etc.) which are
        intended to prevent the occurrence of the food safety hazard are adequately justified and
        properly implemented.

Completion Date: December 2011

Recommendation 4
Develop a detailed operational plan with specific timeframes and milestones to implement an
inspection system that focuses E. coli O157:H7 sampling and testing resources primarily at
plants that are likely to be of higher risk and consider the use of specialized sample collection
teams.

Agency Response

FSIS will evaluate its sampling program in the context of prevalence data and inspection
verification data. FSIS believes that effective verification of food safety systems must include
inspection of an establishment’s production process to ensure that controls are adequately
designed and implemented to prevent, eliminate or reduce contamination with E. coli O157:H7.
To improve inspection program personnel verification of process controls for the reduction of E.
coli O157:H7 at both beef slaughter and processing establishments, FSIS will be taking the
following actions during 2011. Together, these actions will give inspection program personnel
comprehensive, aggregate data on establishment process controls for E. coli O157:H7.

    ·   FSIS will revise Directive 6410.1, Verifying Sanitary Dressing and Process Control
        Procedures in Slaughter Operations of Cattle of Any Age, with a special emphasis on
        improving and clarifying verification of sanitary dressing, given that contamination of
        carcasses is the primary cause of ground beef component adulteration by E. coli
        O157:H7.
    ·   FSIS will issue a new Notice regarding traceback methodology for E. coli O157:H7 in
        ground beef components after FSIS or other Federal or State agencies find ground beef
        or bench trim tests presumptive positive for E. coli O157:H7. This Notice will provide
        instructions concerning how to conduct product traceback from the grinder or bench trim
        establishment and what to do at originating supplier slaughter establishments following
        a confirmed positive for E. coli O157:H7 in ground beef, including assessing whether
        evidence of a high event period may have occurred and how to manage information
        gathered during a product traceback.
    ·   FSIS will implement a new inspection procedure, the Hazard Analysis Verification
        (HAV), which will examine an establishment’s hazard analysis and decision making
        documents. The HAV will serve as a screening process to identify issues of concern in
        the design of the establishments’ food safety systems. HAVs will be performed at
        specified frequencies and when certain information prompts identify establishments that
        may have modified their HACCP system or may have failed to change their HACCP
        plan in response to a significant change in the establishments’ process. A HAV will
        verify that the establishment’s hazard analysis addresses the applicable food safety
        hazards for the process, product, and intended use. It will also verify that there is at
        least one CCP for the hazards that are reasonably likely to occur and that there is
                                           6


      support for any decisions that applicable hazards are not reasonably likely to occur. It
      will also verify that any prerequisite programs (such as an SOP, GMP, purchase
      specifications, etc.) which are intended to prevent the occurrence of the food safety
      hazard are adequately justified and properly implemented.

Completion Date: December 2011
